K

qJ

v

Supreme Court, U.S.
FILED

ti

U1 Ji

JUL 2 0 2020

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

RICHARD HOLLIHAN JR • / PRO SE

— PETITIONER

(Your Name)

vs.
COMMONWEALTH OF PENNSYLVANIA
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF PENNSYLVANIA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Richard Hollihan Jr.,AJ-0676 Pro Se

(Your Name)
1600 Walters Mill Road

(Address)
Somerset, Pennsylvania, 15510
(City, State, Zip Code)
(814)443-8100 Prison's Number

(Phone Number)

i n

vf-' -r
V| M

U;J

.-v

____

y Vi V! Vyivj tV

)

\

':4
'■j

QUESTION(S) PRESENTED

1. Did the Pennsylvania Supreme Court violate the
14th Amendment to the United States Constitution
when it Denied Petitioner's Application For
Extraordinary Relief that conflicts with its own
Precedential Decision?

i

LIST OF PARTIES

Ji All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
COMMONWEALTH V. HOLLIHAN,566 A.2d 254 (Pa. Super.
1989)/ appeal denied, 593 A.2d 838 (Pa.1991).
COMMONWEALTH V. HOLLIHAN,963 A.2d 567 Pa. Super.
2008) (unpublished memorandum), appeal denied,
967 A.2d 958 fPa. 2009), CERT. Denied, 557 U.S.
926 (2009) .

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

I

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

4

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

.18

INDEX TO APPENDICES
APPENDIX A “ ORDER DATED 22ND DAY OF MAY,2020, the KING'S BENCH
MATTERS APPLICATION-FOR EXTRAORDINARY RELIEF IS DENIED.
APPENDIX B - ORDER DATED JUNE 22ND,2020,THE MOTION FOR RECONSID­
ERATION IS DENIED.
APPENDIX C - APPLICATION EXTRAORDINARY RELIEF PURSUANT TO PA. R.
A.P. RULE 3309 and PA. C.S. 726 PA. SUPREME COURT.
DATED JANUARY 28,2020
APPENDIX D - MOTION FOR RECONSIDERATION FROM THE ORDER IN THE
KING'S BENCH MATTERS APPLICATION EXTRAORDINARY RELIEF.
DATED MAY 29,2020

APPENDIX E
APPENDIX F

/

iii

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Borough of Old Forge, 66 F. Supp 3d 592,614 (M.D.
Pa. 2014)

15 & 16

Commonwealth v. Stallone, 281 Pa. 41; 126 A 56 1824
Pa. LEXIS 565 No. 347 May 12, 1924, Argued July 8,
1 924....................................................................................................

16 & 17

Desi's Pizza Inc, v. City of Wilkesbarre, 321 F.3d
411, 425 (3rd Cir. 2003)

15

Evitts v. Lucey, 469 U.S. 387, 105 S. Ct. 830, at
834, 83 L.Ed. 2d 821 , 1 985................................................

15

Hill v. Borough of Kutztown, 455 F.3d 225, 239 (3rd
Cir.2006).........................................................................................

16

Johnson v. Anhorn, 416 F. Supp. 2d 338, 375 (E.D.
Pa. 2006)

15

Reed v. Chambersburg Area School District, 951 F.
Supp. 2d 706, 716 (M.D. Pa. 2013)
STATUTES AND RULES

16

42 PA. C.S. 725

3

PA. R.A.P. RULE 3309

3

RULE 10(b)

17

OTHER
Black's Law Dictionary (6th.ed)

iv

16 & 17

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ *| For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ___ to the petition and is
N/A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IX! is unpublished.

The opinion of the_
appears at Appendix

N/A

court

to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was May 22,2020 .
A copy of that decision appears at Appendix A
DO A timely petition for rehearing was thereafter denied on the following date:
June 22.2020
, and a copy of the order denying rehearing
appears at Appendix B.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Constitution Amendment XIV
42 PA.C.S. 726
PA. R.A.P. RULE 3309

3.

STATEMENT OF THE CASE
On March 8/1985, Appellant was falsely accused, framed
and arrested and placed in the Old County Jail in the
mental health section.
■

On March 1 5,1985, Appellant had a Coroner's Inquest with
paid counsel, held for trial.
On March 21,1985, Appellant was placed on a bail bond
at 10% of $25,000.00 dollars, taken out of the mental
health section and released to go home to my 4 daughters.
On Monday, October 28,1985, Appellant's trial was to
start.
On October 31,1985, in the Courtroom of my trial Judge
a Suppression hearing was held with Counsel present No
one was there to give an account of what evidence or
confession was involved. Brief of Attorney Omnibus Pre­
trial Motion Rule 306.
On January 28th, 1986, the Attorney's Omnibus Pre-Trial
Motion was denied by the Court. Trial Started that morn­
ing.

On February 4,1986, The jury Trial ended and was found
guilty of Murder in the First Degree.
On February 7, 1986, Trial Counsel filed a Motion For
a New Trial and or Arrest of Judgment.
In March, 1986, Appellant fired my trial Counsel due to
his ineffectiveness and hired another Attorney.

4.

On July 23,1986, Appellant Richard Hollihan Jr., due
to his exparte communications with Judge James R. McGregor,
on Orders, Judge McGregor had me taken to Farview State Mental
Hospital'in Waymart, Pennsylvania, and on September 17,1986,
I returned back to Pittsburgh, Pennsylvania.
On September 12,1986, Paid Counsel Paul R. Gettleman,Esq.
filed additional Post Verdict Motions.
On October 14,1986, a hearing was conducted by Judge McGregor
to hear my testimonies about my wife’s suicide and to dete­
rmine if trial counsel Hickton was ineffective.
On April 3,1987, a hearing was conducted by Judge McGregor
to hear a psychologist named Arthur Vancarra’s testimonies
to ask him if he was paid.and does he represent Mr. Hollihan
as a Vietnam Veteran, did he evaluate me, Was he bribed by
Mr. Hickton for his services'?
On May 15,1987, the Motion hearing was denied and on that
same day, Appellant was sentenced to Life in Prison, No Parole.
On June 4,1987, the Office of the Public Defender Howard B.
Elbling and Lester B. Nauhaus and John H. Corbett Jr. did
my. direct appeal and on June 12,1987, atimely Notice of Appeal
was filed. Docket at Superior Court as 800 Pittsburgh, 1987.
On December 2,1987, Appellant filed a Motion for ALL Trans­
cripts .
On September 28,1989, the Superior Court affirmed the
Judgment of Sentence. :Case No. 566 A.2d 254 ()Pa.Super Ct.).
On October 12,1989, an Application by the Public Defender’s
for reargument was timely filed, BUT denied on November 6,
1 989.

On December 7th,1989, or so or about, the Allegheny County
District Attorney Appeals/Post Convictions Unit received
the Public Defender's Petition ©<£ Allowance of Appeal They
are Lester G. Nauhaus, Shelley Stark and James R. Wilson who
drafted up Appellant's Petition to the PA. Supreme Court, the
Court gave a docket number 677 W.D.Allocatur, 1 989. ,
NO ANSWER

On July 8,1991, Appellant Richard Hollihan Jr.,received a
letter that was sent to the Public Defender's on their 677
Allocatur, stating: Dear Ms.Stark and Mr. Wilson:
The Court has entered the following Order on your Petition
for Allowance of Appeal in the abo.ve-captioned matter:
"Petition Denied
Per Curiam
7/3/91"
On June 1 1 ,1 993,, Judge James R. McGregor, trial Judge who
presided over Appellant's Post Conviction dated June 10,1993,
which was Appellant's First P.C.R.A. Petition,made note that
Appellant's First P.C.R.A. Petition is sent to his Court.
On December 3,1993, THe Commonwealth filed a Motion for an
extension of time to answer the P.C.R.A. Petition. Although
counsel had been appointed by McGregor, NO Amended Petition
was filed on Appellant's behalf, and the record does not refl­
ect that the Commonwealth ever filed an answer to the Petition.
On February 25,1994, Appellant receives a letter from Att­
orney Robert A. Crisanti, stating he was appointed for Appellants
P.C.R.A., that he only came aware of my case on in November of
1 993 .
On March/April 1991, Appellant at SCI-Somerst*PA, Petitioned
THE Court for Trial Records, All Records, because his P.C.R.A.
Attorney wasn't acting on Appellant's best interest.
On June 17,1994, Appellant FILED for A Immediate Evidentiary
6.

m

Hearing about Attorney Robert A. Crisanti.

On July 21 ,1 996, two (2) years later Court Appointed Robert
A.Crisanti filed a NO-Merit Letter..
On July 23,1996 by Order of the PCRA Court(McGregor) and
filed July 26,1996, counsel’s Motion to withdraw was granted
and my 1st PCRA Petition was dismissed.
On July 31,1996, Appellant Hollihan filed an Appeal on His
1st PCRA, AND WAS ASKING THAT Judge McGregor recuse himself
off of my PCRA Petition.
On March 5,1998, Appellant sent a copy to the PCRA. Courts
of His 1st PCRA Petition to see if the Court had a correct
. copy of his 1st PCRA Petition, that was mistaken as a 2nd
PCRA...
On August 8,2001, Appellant filed a Motion for Immediate
Release due to all the confussion with the PCRA Court and
Judge McGregor's actions on the PCRA Petition.
On September 4,2001, McGregor's Order denying the Motion
For Immediate Release and Discharge.
On January 15,2002, Appellant filed a Motion For Trial
Transcripts, all Court Records, and to proceed In Forma Pauperis.
On February 19,2002, Judge McGregor denied the Motion
made an OPinion denying transcripts.
On February 21,2002, Motion for Transcripts.

7.

On October 31,2007, Appellant files his 2nd PCRA Petition
On November 11,2007, the PCRA Court under Judge Kathleen A.
Durkin issued a notice of intent to dismiss pursuant to Pa.
Rule Criminal Procedure 907..
On December 3,2007, Appellant Pro Se filed a response to
the intent to dismiss the PCRA Petition.
On December 13,2007, Judge Kathleen A. Durkin denied the
PCRA Petition.
On December 21,2007,Appellant Richard Hollihan Jr.,Filed
a Notice of Appeal (to Superior Court^ copy went to Judge.
On January 3,2008, Judge Durkin made her Opinion ON MY
PCRA
On January 8,2008, Appeal- Docket Sheet from Superior Court
was sent.
On March -1 2,2008, Appeal sheet prepared by the Commonwealth
copy was given to Appellant Superior Court
On March 12,2008 , Certificate and transmittal of Record to
Appellate Court by Kate Barkman
On March 25, 2008, Pro Se correspondence mailed docket report
to Defendant, Appellant
On March 26,2008, Pro Se Petition filed by Richard Hollihan
Motion for an Attorney.
On December 15,2008, Appellant filed a Petition for allow­
ance of Appeal to the PA Supreme Court.
On April 20,2009, Petition for Allowance of Appeal denied
in the PA. Supreme Court.
8.

On May 11,2009, THe way it looks, The PA. Superior Court
Affirmed the PA.State Supreme Courts Denial.

On September 8,2011, Appellant sent a letter to the Court,
a copy of it went to the Federal Bureau of Investigation but
Appellant received No reply.
On March 13,2014, Petitioner filed a State Habeas Corpus
Petition.which the Judge Durkin-made into a PCRA Petition.
On July 22,2014, Appellant filed a Motion for Court
appointed Attorney.
On August 1 4,201 4, ..Appellant filed for Transcripts arid ALL
Court Records to be sent to him.
On November 13,2014, Appellant filed for a Immediate Release
and Discharge of all wrong doings. Citing case law without
trial Court Records.
.On November 25,2014, Appellant received a Notice of Intent
To Dismiss from Judge Durkin.
On January 8,2015, Appellant receives an Order denying Post Conviction Relief Act, IN fact the Petition was a State
Habeas Corpus Petition.

9.

4.

On January 11,2016, Appellant filed a Petition for
EXTRAORDINARY JURISDICTION (nunc pro tunc) in the Pennsylvania
Supreme Court, Richard Hoilihan Jr. v. Commonwealth of PENNA.1
Allegheny County District Attorney and the Pennsylvania Attorney
General.

On January 29,2016, Appellant Richard Hoilihan Jr., received
a letter addressed to Attorney Beemer and Streily.
FEom the Pennsylvania Supreme Court in Pittsburgh, Pa. at 414
Grant Street, the Court gave a docket number 16' WM 2016.

On February 5,2016, The Supreme Court SENT Appellant a
PRAECIPE FOR APPEARANCE AND PROOF OF SERVICE.
AND on this same day, the. Office of the District Attorney
sent me a copy of an ANSWER. Stats: Dear Mr. Vaskov:
This is to advise you that the Commonwealth will not file
an Answer to the Application for Extraordinary Relief filed
in the above-captioned case. Signed Sandra Preuhs.'

On March 30^2©$6,Appellant received an ORDER from the PA.
Supreme Court: PER CURIAM
AND NOW, this 30th day of March,2016, the
Application for Extraordinary Jurisdiction is DENIED.
Signed Chief Clerk of Court Patricia Nicola

On April 5,2016,Appellant Richard Hoilihan JR.,files a
Application For Reargument Or Reconsideration.
On May 5,2016, from the PA. Supreme Court comes an ORDER
entered on May 5,2016 PER CURIAM
AND NOW, this 5th day of May,2016, the
Application for Reconsideration is DENIED.
Same Clerk denied it in the

PA. Supreme Court.
10.

In May, 2016, Appellant sent a letter to the Pennsylvania
Supreme Court asking an Opinion.

On May 12,2016, Came a letter from the Pennsylvania
Supreme Court Office of the Prothonotary, NOT SIGNED,
denying any Arguments in my Petition, even Rearguments.
On June 27,2017,
Appellant taliking to an attorney, who
1
represented Appellant in a Civil case, Appellant wrote a
LETTER TO THE Court's explaining his case.
On July 7,2017, Appellant filed a Motion in the Common
Pleas Court asking for his wife's Autopsy Report.
On July 13, 2017, The Motion was received by the Court
Titled "MOTION FOR AUTOPSY REPORT directed at the Allegheny
County Medical Examiner's Office.
On August 25,2017, AN ORDER denying the Motion
Autopsy Report.

for the

On September 5, 2017, Appellant filed a NOTICE OF APPEAL
TO the Superior Court of the Commonwealth of Pennsylvania
Pittsburgh.

On September 12,2017, Appellant had to amend a Proof of
Service, the Court advised it..
On September 15,2017, Superior Court a Docketing statement
from Superior Court in Pittsburgh, PA.
On September 26,2017, An Order Directing a Concise Statem­
ent of Matters be filed by Appellant.
11.

*

On October 11,2017/ an Opinion was made by Judge Kathleen
A. Durkin.
On October 17,2017, a Concise Statement of Matters Compained On Appeal was forwarded to the Dept, of Records by
Appellant via Judge's Chambers.
On October 23,2017, Appeal Docket Sheet was prepared via
Dept, of Records for the Court by Appellant AND the Cert­
ificate of Record was sent to the Appellate Court.
On October 27,2017, A Subpoena to produce documents or
things for discovery by Appellant was sent to the Court.
On October 27,,Q1\7fMotion for wife's Autopsy Report was
sent to the Court by Appellant.
On November 1,2017, An Application For Relief pursuant
to PA. R.A.P. 123 was sent by Appellant to the Court.
On November 9,2017, Appellant sent all Motions, The
Court7stalled held the paper work up.
On June 18,2018,Superior Court Affirmed the Case
On August 2,2018, Appellant received a Court Docket Sheet
which was wrong. No answer from the Court to correct it.
On October 1,2018, Appellant/Petitioner sent a Petition
For A Writ Of Mandamus Motion To Proceed, to the Judge
who has taken a personal knowledge of Petitioner's Case.
On October 18,2018, Appellant/Petitioner made a Pro Se
Correspondance and told the Court his docket is wrong.
12.

On October 31,2018, Petitioner sent a Pro Se letter to
the Judge Durkin asking her about why my case is being
denied?
On December 7,2018, The Judge Kathleen A. Durkin sent a
Notice of Intent to Dismiss the case.
On January 2,2019 Petitioner Pro Se sent a Notice of
Appeal to Superior Court.
On January 2, 2019, the case Corrrepondence

Advised that

a final Order disposing a PCRA Petition/MOTION has not
been issued.
On January 29,2019, Petitioner filed a Motion to Recuse
Judge Kathleen A. Durkin off my case. Reason for doing
this she changed my MOTION into a PCRA AND TIME barred
me. Case given to Judge Lawrence J. O'Toole.
On March 14,2019, Judge O'Toole sent an Order that I did
not know about to deny Petitioner Case.

On the months that pass from March 2019 and seeking att­
orney (s) for advice on how to litigate my case because
it has been going on 34 years now and NO relief, The
question came up about the weapon fired during my trial
no one had any case law or could find any. So I did it
On January 28,2020, Petitioner sent a King's Bench
Petition to the Pennsylvania Supreme Court, One issue,
the PA. Supreme Court' Appeal as follows :
13.

On May 22,2020, The King's Bench Matters Application
For Extraordinary Relief was Denied*,.,.

On June 22,2020, The Motion For Reconsideration was
Denied .

This Petition For A Writ Of Certiorari Follows,;

14.

REASONS FOR GRANTING THE PETITION

The Pennsylvania Supreme Court has decided an im­
portant Federal Question in a way that conflicts with
its own precedential decision in a prior case and
conflicts with other State Courts of last Resort.

"The procedures used in deciding appeals must
comport with the demands of the Due Process and Equal
Protection Clauses of the Constitution". Evitts v.Lucey,
469 U.S. 387, 105 S.Ct. 830, at 834,83 L.Ed. 2d 821,1985applying Fourteenth Amendment of the United States
Constitution.

The Equal Protection Clause of the Fourteenth Amend­
ment prohibits State Officials from exercising their dis­
cretionary authority for an intentionally discriminatory
purpose. SEE: Johnson v. Anhorn, 416 F. Supp. 2d 338, 375
(E.D. Pa. 2006). Thus, selective prosecution may consti­
tute illegal discrimination even if the prosecution is
otherwise warranted. " Desi's Pizza Inc, v. City of WilkesBarre, 321 F.3d 411,425 (3rd. Cir. 2003).

There are two theories by which a [Petitioner] may
establish an equal protection Claim: the traditional
theory and the Class-of-One Theory. Borough of Old Forg^
15.

66 F. Supp. 3d 592, 614 (M.D. Pa. 2014), Under the Trad­
itional theory, A [Petitioner] must allege: (1) that he
or she is a member of a protective Class; and (2) that the
government treated similarly situated individuals outside
of the protected

Class differently." Reed v. Chambersburg£I

Area School District,951 E. Supp. 2d 706, 716 (M.D. Pa.
2013). Alternately, to state a claim under the Class-ofone theory, " A [Petitioner] must allege that; (1) [Res­
pondent] treated him differently from other similarly
situated, (2) the [Respondent] did so intentionally, and
(3) there was no rational basis for the difference in
treatment. Reed, 951 F. Supp. 2d at 716 (Quoting Hill
v..Borough of Kutztown, 455 F.3d 225, 239 (3rd Cir. Ct.
2006) .
In the case sub judice, Petitioner alleges that he
is in the "Class-of-one catagory established under the
equal protection theory. Petitioner asserts that under
the precedent established by the Pennsylvania Supreme
Court in Commonwealth v. Stallone, 281 Pa. 41; 126 A.56
1924 Pa. LEXIS 565 No 347 May 12,1924, Argued July 8,
1924, he was denied the equal protection afforded the
Appellant in the case, supra Black's Law Dictionary
(6th ed) defines Precedent as: *!kn adjudged case or deci­
sion of a Court, considered as furnishing an example or
authority for identical similar Case afterwards arising
or a similar Question of Law....A Rule of Law established
for

16.

the first time by a Court for a particular type of case
and thereafter referred to in deciding similar cases'.'

Petitioner avers here that His Case is Identical
or similar to Stallone Supra, in that weapon was fired
in the Courtroom during his trial, however, the Pennsyl­
vania Supreme Court failed to reach the same conclusion,
Stallone received a New Trial whereas Petitioner received
a conviction and subsequent life sentence.
BLACK'S Law Dictionary(6fch ed) defines Stare Decisis as:
" To abide by, or adhere to, decided cases.
Commonwealth v. Stallone, supra, has not been overruled
IN 9*6 YEARS, THEREFORE, UNDER BOTH PRECEDENT AND STARE
DECISIS, Petitioner should have gotten relief.

Under the Rules of the Supreme Court of the United
States, Rule 10(b) it states:
(b) A State Court of last resort has decided on
important Federal Question is a way that conflicts with
the decision of another State Court of last resort or
of a United States Court of Appeal;...
Petitioner avers that this Honorable Court should Grant
Certiorari for this compelling reason to establish un­
iformity amoung the State Courts of last resort so that
the procedures that they use to decide appeals comport
17.

with the Due Process and Equal Protection Clause of the
Fourteenth

Amendment of the United States Constitution.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

huh /<?* 3030

18.

